APPENDIX
United States v. Yadigarov
Appeal No. 20-10857
available at 840 F. App’x 487 (11th Cir. 2021)
(unpublished)
United States v. Yadigarov
Case No. 6:17-cr-205-Orl-40LRH

App. 1
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 20-10857
Non-Argument Calendar
-----------------------------------------------------------------------

D.C. Docket No. 6:17-cr-00205-PGB-LRH-4
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
ZAFAR BAKHRAMOVICH YADIGAROV,
Defendant-Appellant.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Middle District of Florida
-----------------------------------------------------------------------

(January 8, 2021)
Before MARTIN, ROSENBAUM and JILL PRYOR,
Circuit Judges.
PER CURIAM:
Zafar Yadigarov appeals the district court’s denial
of his 28 U.S.C. § 1651 petition for a writ of error coram
nobis. On appeal, Yadigarov argues that the district
court erred by ruling that his petition was procedurally
barred and by denying his petition without holding an

App. 2
evidentiary hearing. Because we discern no abuse of
discretion, we affirm.
I.

BACKGROUND

A federal grand jury indicted Yadigarov on one
count of conspiracy to commit marriage fraud and one
count of marriage fraud. Three days before trial,
Yadigarov’s attorney advised him that he “really
need[ed] to plea” because Yadigarov could “get 16
months prison when [he] los[t].” Doc. 427-1 at 2.1 The
day of trial, Yadigarov pled guilty to both counts.
At the change of plea hearing before the district
court, Yadigarov testified that he had received a copy
of the indictment, discussed the charges with his attorney, and was fully satisfied with his attorney’s representation and advice. Yadigarov acknowledged that he
had not been threatened, intimidated, or coerced into
pleading guilty. And he said he understood it was “exceptionally likely” that he could be deported from the
United States because of his guilty pleas. Doc. 392 at
6. The court informed Yadigarov of the potential statutory penalties he faced and explained that the advisory
sentencing guidelines range would not be calculated
until after the probation office prepared a Presentence
Investigation Report (“PSR”). The district court cautioned Yadigarov that if the PSR’s guidelines range
was different from what he expected, he could not
withdraw his guilty plea on that basis. The district
court also explained that the Sentencing Guidelines
1

“Doc.” numbers refer to the district court’s docket entries.

App. 3
were advisory and that the court could impose a sentence lower or higher than the PSR’s recommended
range. Yadigarov said that he understood. Yadigarov
pled guilty to both counts; the court accepted the plea
and adjudicated him guilty.
The PSR grouped both counts per U.S.S.G.
§ 3D1.2(b) and determined that under U.S.S.G.
§ 2L2.2(a), Yadigarov’s base offense level was eight.
The PSR applied a two-level reduction for acceptance
of responsibility, yielding a total offense level of six.
Based on his total offense level and criminal history
category of I, Yadigarov’s recommended range under
the Sentencing Guidelines was zero to six months’ imprisonment.
Shortly after the PSR was filed, Yadigarov moved
to withdraw his guilty plea. He contended, among
other arguments, that he felt pressured to plead guilty
by his family and friends and from the fear of potential
immigration consequences. The district court denied
Yadigarov’s motion, concluding that his plea was a
“knowing, voluntary, and intelligent decision that was
made without undue influence.” Doc. 364 at 5. Yadigarov’s case proceeded to sentencing, where the district
court sentenced him to time served and one year of supervised release. Yadigarov filed a notice of appeal and
later voluntarily dismissed the appeal. When he dismissed the appeal, Yadigarov had almost eight months
left in his term of supervised release.
About four months after his term of supervised release ended, Yadigarov filed a petition for a writ of

App. 4
error coram nobis under the All Writs Act, 28 U.S.C.
§ 1651(a), in the district court, asserting ineffective assistance of counsel. Yadigarov argued that his attorney
wrongfully advised him that if convicted at trial, his
guidelines range would be 10–16 months’ imprisonment when, in fact, the range was 0–6 months regardless of whether he pled guilty or proceeded to trial. But
for this incorrect advice, Yadigarov would have “taken
his chances at trial.” Doc. 427 at 5.
The district court denied Yadigarov’s petition. The
court explained that ineffective assistance of counsel
claims were properly pursued under 28 U.S.C. § 2255
and that, under Carlisle v. United States, 517 U.S. 416
(1996), “ ‘[w]here a statute specifically addresses the
particular issue at hand, it is that authority, and not
the All Writs Act, that is [c]ontrolling.’ ” Doc. 428 at 2
(quoting Carlisle, 517 U.S. at 429). Because Yadigarov
had ignored Carlisle and failed to articulate why he did
not pursue relief under § 2255, the court concluded his
petition was frivolous.
The district court also determined that even if
coram nobis relief was available, Yadigarov was not entitled to it. At the change of plea hearing, the court informed Yadigarov of the potential consequences of
pleading guilty, that the guidelines range would not be
calculated until after the PSR was prepared, and that
the court could impose a sentence above or below the
guidelines range. As a result, Yadigarov was “wellaware of the potential risks of proceeding to trial . . .
and that any advice by his attorney regarding the sentencing guidelines may prove to be incorrect.” Id. at 6.

App. 5
The district court concluded that Yadigarov elected to
plead guilty and his attempt to vacate his convictions
to avoid deportation was not the type of “compelling
circumstance[ ]” for which coram nobis relief was intended. Id. at 5 (internal quotation marks omitted).
This is Yadigarov’s appeal.
II.

STANDARD OF REVIEW

We review a district court’s denial of a writ of error
coram nobis for an abuse of discretion. United States v.
Bane, 948 F.3d 1290, 1294 (11th Cir. 2020). An error of
law is an abuse of discretion. Alikhani v. United States,
200 F.3d 732, 734 (11th Cir. 2000). And a district court
abuses its discretion if it makes a finding of fact that is
clearly erroneous. Diveroli v. United States, 803 F.3d
1258, 1262 (11th Cir. 2015). “A factual finding is clearly
erroneous when, upon review of the evidence, we are
left with a definite and firm conviction a mistake has
been made.” United States v. Dimitrovski, 782 F.3d 622,
628 (11th Cir. 2015).
We have not yet specified a standard of review for
the denial of an evidentiary hearing in a petition for a
writ of error coram nobis, but in other contexts a district court’s denial of an evidentiary hearing is reviewed for an abuse of discretion. See Aron v. United
States, 291 F.3d 708, 714 n.5 (11th Cir. 2002); see also,
e.g., Hernandez v. United States, 778 F.3d 1230, 1232
(11th Cir. 2015) (evidentiary hearing in a motion to
vacate a sentence); Burgess v. Comm’r, Ala. Dep’t of
Corr., 723 F.3d 1308, 1320 (11th Cir. 2013) (evidentiary

App. 6
hearing in a habeas proceeding). In Aron, we noted
that if the petitioner “alleges facts that, if true, would
entitle him to relief, then the district court should order an evidentiary hearing and rule on the merits of
his claim.” 291 F.3d at 715 (internal quotation marks
omitted). However, a district court is not required to
hold an evidentiary hearing where the petitioner’s allegations are “affirmatively contradicted by the record,
or the claims are patently frivolous.” Id.
III.

DISCUSSION

Federal courts have authority to issue writs of
error coram nobis under the All Writs Act, 28 U.S.C.
§ 1651(a). United States v. Mills, 221 F.3d 1201, 1203
(11th Cir. 2000). “A writ of error coram nobis is a remedy available to vacate a conviction when the petitioner has served his sentence and is no longer in
custody, as is required for post-conviction relief under
28 U.S.C. § 2255.” United States v. Peter, 310 F.3d 709,
712 (11th Cir. 2002). The writ of error coram nobis is
an extraordinary remedy of last resort available only
in compelling circumstances where necessary to
achieve justice. Mills, 221 F.3d at 1203. The bar for
obtaining coram nobis relief is high, and the writ may
issue only where “there is and was no other available
avenue of relief ” and “the error involves a matter of
fact of the most fundamental character which has not
been put in issue or passed upon and which renders
the proceeding itself irregular and invalid.” Alikhani,
200 F.3d at 734 (internal quotation marks omitted).
Further, courts may consider coram nobis petitions

App. 7
only where the petitioner “presents sound reasons for
failing to seek relief earlier.” Mills, 221 F.3d at 1204.
The district court did not abuse its discretion in
denying Yadigarov’s petition for writ of error coram
nobis because, although 28 U.S.C. § 2255 offered an avenue of relief, Yadigarov failed to seek it and to provide
sound reasons for failing to do so.2 Yadigarov requests
coram nobis relief based on ineffective assistance of
counsel, but “an ineffective assistance of counsel claim
is properly raised in a collateral attack on the conviction under 28 U.S.C. § 2255.” United States v. Merrill,
513 F.3d 1293, 1308 (11th Cir. 2008) (alteration
adopted) (internal quotation marks omitted). Yadigarov correctly notes that § 2255 relief was unavailable
when he filed his coram nobis petition because he was
no longer “in custody,” as is required for post-conviction
relief under § 2255. Peter, 310 F.3d at 712. However,
Yadigarov could have raised his ineffectiveness claim
under § 2255 until October 10, 2019, when his term of
supervised release ended. See United States v. Brown,
117 F.3d 471, 475 (11th Cir. 1997) (holding a person is
“in custody” within the meaning of § 2255 when he is
serving a term of supervised release). There was an
2

Because we conclude that the district court properly determined that Yadigarov was not entitled to coram nobis relief on
this ground, we do not decide whether ineffective assistance of
counsel may serve as the basis for coram nobis relief or address
the merits of Yadigarov’s ineffective assistance of counsel claim.
See Gonzalez v. United States, 981 F.3d 845, 851 (11th Cir. 2020)
(“We have assumed but not decided that ineffective assistance of
counsel may constitute an error so fundamental as to warrant coram nobis relief.” (internal quotation marks omitted)).

App. 8
available avenue of relief for the claim Yadigarov seeks
to vindicate; he simply failed to pursue it. See Alikhani,
200 F.3d at 734 (“[T]he writ [of error coram nobis] is
appropriate only when there is and was no other
available avenue of relief.” (emphasis added)); see also
Carlisle, 517 U.S. at 429 (“Where a statute specifically
addresses the particular issue at hand, it is that authority, and not the All Writs Act, that is controlling.”
(internal quotation marks omitted)).
Yadigarov also does not offer “sound reasons . . .
for failure to seek appropriate earlier relief.” United
States v. Morgan, 346 U.S. 502, 512 (1954). He does not
assert that he only learned of the factual basis for his
ineffective assistance of counsel claim after he was no
longer eligible for § 2255 relief. Cf. Gonzalez v. United
States, 981 F.3d 845, 852 (11th Cir. 2020) (“Perhaps
having no reason to question bad legal advice because
it appeared accurate is a valid excuse for not seeking
relief earlier.” (internal quotation marks omitted)). Instead, Yadigarov argues that he was unable to move for
§ 2255 relief while his direct appeal was pending. That
is true, see United States v. Khoury, 901 F.2d 948, 969
n.20 (11th Cir. 1990), but Yadigarov chose to file a direct appeal rather than raise his ineffective assistance
of counsel claim in a § 2255 motion. What’s more,
Yadigarov fails to account for the eight months after he
dismissed his direct appeal but before his supervised
release term ended. During those eight months § 2255
relief was available, yet Yadigarov provides no valid
excuse for failing to seek it. See Alikhani, 200 F.3d at
734; see also Carlisle, 517 U.S. at 429; Morgan, 346 U.S.

App. 9
at 512. Yadigarov also contends, without citing to authority, that because he filed his coram nobis petition
within § 2255’s one-year limitations period, he should
not be barred from obtaining relief. See 28 U.S.C.
§ 2255(f ). But Yadigarov’s argument is inapposite, as it
still does not explain why he failed to seek relief under
§ 2255 when such relief was available.
A petition for a writ of coram nobis is an “extraordinary remedy of last resort,” Mills, 221 F.3d at 1203;
it does not provide a petitioner an opportunity to assert
claims he neglected to bring in previously available
proceedings, see Alikhani, 200 F.3d at 734. Therefore,
we conclude that the district court did not abuse its
discretion in denying Yadigarov’s petition because he
was permitted to seek relief under § 2255 and he did
not provide sound reasons for failing to do so while
serving his term of supervised release. Further, because Yadigarov was not entitled to coram nobis relief,
the district court did not abuse its discretion when it
denied his petition without an evidentiary hearing. See
Aron, 291 F.3d at 715.
IV.

CONCLUSION

For the foregoing reasons, we affirm the district
court’s denial of Yadigarov’s petition.
AFFIRMED.

App. 10
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
UNITED STATES OF
AMERICA
VS.
ZAFAR BAKHRAMOVICH
YADIGAROV
/

CASE NO: 6:17-cr205-Orl-40LRH

ORDER
(Filed Feb. 18, 2020)
This cause is before the Court on Defendant’s Petition for Writ of Error Coram Nobis. (Doc. 427). Upon
due consideration, the Petition is denied.
I.

BACKGROUND

On August 30, 2017, the Defendant was named
along with six co-defendants in a conspiracy to engage
in marriage fraud to obtain citizenship, and a substantive violation charging marriage fraud. (Doc. 1). Mr.
Yadigarov appeared for his arraignment on December
8, 2017. (Doc. 134). The trial in this cause was originally set to commence on March 5, 2018. (Doc. 172).
The trial was continued three times at the Defendant’s
request, (Doc. 172, 230, 246), and scheduled to begin
on July 23, 2018. (Doc. 288). Mr. Yadigarov pled guilty
to Counts Two and Four of the Indictment on July 23,
2018, (Doc. 312), and the Final Presentence Investigative Report was submitted by the United States’

App. 11
Probation Office on October 2, 2018. (Doc. 361). Two
days later, Mr. Yadigarov filed his motion to withdraw
the guilty plea. (Doc. 363). On October 9, 2018, the
Court denied Defendant’s motion to withdraw his
guilty plea. (Doc. 364). Defendant Yadigarov ultimately
dismissed his direct appeal, (Doc. 401), and he never
filed a petition for relief pursuant to 28 U.S.C. § 2255.
II.

STANDARD OF REVIEW

“Federal courts have authority to issue a writ of
error coram nobis under the All Writs Act, 28 U.S.C.
§ 1651(a).” United States v. Mills, 221 F.3d 1201, 1203
(11th Cir. 2000). However, a writ of error coram nobis
is “an extraordinary remedy of last resort available
only in compelling circumstances when necessary to
achieve justice.” Id. (citation omitted). Thus, the error
must be “of the most fundamental character.” Id. (citation omitted). “In addition, courts may consider coram
nobis petitions only where no other remedy is available, and the petitioner presents sound reasons for failing to seek relief earlier.” Id., (citing United States v.
Morgan, 346 U.S. 502, 512, 74 S.Ct. 247, 98 L.Ed. 248
(1954)).
“Moreover, ‘[t]he All Writs Act is a residual source
of authority to issue writs that are not otherwise covered by statute. Where a statue specifically addresses
the particular issue at hand, it is that authority, and
not the All Writs Act, that is Controlling.” Carlisle v.
United States, 517 U.S. 416, 429, 116 S.Ct. 1460, 134
L.Ed.2d 613 (1996). The Supreme Court observed that

App. 12
since the enactment of the Federal Rules of Criminal
Procedure, “it is difficult to conceive of a situation in a
federal criminal case today where [a writ of coram
nobis] would be necessary or appropriate.” Id. (citation
omitted).1 Claims of ineffective assistance of counsel
are properly pursued under 28 U.S.C. § 2255–the statute that specifically addresses the issue at hand.
III. DISCUSSION
The Petitioner claims for the first time in his petition for writ of error coram nobis that the judgment
and conviction entered against him should be vacated,
because his attorney rendered ineffective assistance of
counsel. (Doc. 427, p. 2). That is, Petitioner asserts that
his trial attorney mistakenly advised him that the advisory guideline range–if convicted at trial–called for
10-16 months imprisonment when the guidelines provided for 0-6 months regardless of whether he pleaded
guilty or proceeded to trial. (Id. at pp. 2-3). Petitioner
contends that but for this bad advice, he would have
“taken his chances at trial.” (Id. at p. 3). Petitioner
failed to raise this issue via at § 2255 petition and fails
to articulate why he elected not to pursue relief under
that statute. Rather coyly Petitioner claims that his
“sound reasons for failing to seek relief earlier” resides
in the fact that one cannot seek coram nobis while
one’s direct appeal is pending. (Id. at p. 6). Petitioner
ignores the Supreme Court’s holding in Carlisle and
1

Petitioner’s failure to address Carlisle in his briefing is regrettable and reflect a lack of complete candor to the tribunal.

App. 13
conjures a legal fiction where coram nobis is no longer
limited to those rare instances where an existing statute fails to provide an avenue for relief. Under Petitioner’s novel construction, a defendant can neglect to
file a direct appeal, fail to pursue relief via § 2255, and
instead rely upon the writ of error coram nobis to raise
legal challenges to his conviction which could have
been advanced at an earlier date. This is simply absurd. Petitioner completely failed to take advantage of
§ 2255, rendering his petition frivolous.
Even if coram nobis was available, Petitioner is
not entitled to relief. The gravamen of Petitioner’s
claim is that inaccurate advice regarding advisory sentencing guidelines caused him to plead guilty rather
than take his chances at trial. During the change of
plea colloquy, the Court advised Petitioner of the potential consequences of pleading guilty:2
THE COURT: I’d like to discuss with you the
potential statutory penalties for the offenses
that you’re pleading guilty to.
Count 2 of the indictment, the conspiracy to
commit marriage fraud, in violation of Title
18, United States Code, Section 371, is punishable by a maximum sentence of not more
than five years imprisonment, a fine of no
more than $250,000, and a supervised release
term of no more than three years, as well as a

2

Petitioner summarizes a portion of the colloquy, choosing
to ignore the Court’s statements regarding the potential penalties
associated with the guilty plea.

App. 14
special assessment of $100. Do you understand that?
THE DEFENDANT:

Yes.

THE COURT: And Count 4, the marriage
fraud count, which is a violation of Title 8,
United States Code, Section 1325(c), has a
penalty of not more than five years imprisonment, a fine of no more than $250,000, a supervised release term of no more than three
years, and a special assessment of $100. Do
you understand that?
THE DEFENDANT:

Yes.

THE COURT: Now, in theory, these are separate offenses and they could be run consecutively, although that’s not common, but in
theory you would be facing a maximum of ten
years imprisonment. Do you understand
that?
THE DEFENDANT:

Yes.

(Doc. 392, 7:1-22).
The Court also advised Petitioner that the guideline range will not be known until after the Presentence Investigation Report is prepared, cautioning
him that he cannot withdraw his plea if his attorney’s
advise on the guideline range is incorrect:
THE COURT: Now, there are Sentencing
Guidelines that apply to these offenses, and
the Sentencing Guidelines are advisory, and
they instruct me in terms of a starting point
for my consideration. In terms of what the

App. 15
guidelines may be in your case, I’m sure you
have discussed those with your attorney, but
you need to know, sir, that Probation will prepare a report, called a presentence investigation report.
That report will contain the facts of this case.
It may discuss your prior criminal record, if
any. It’ll discuss your education, family background, and a host of other pieces of information.
Included in that report is an analysis of the
applicable advisory Sentencing Guidelines.
It’s not until Probation writes that report that
I’ll know what the guideline range is that they
suggest to me and, of course, your attorney
has the right to object to any calculations that
he considers to be incorrect, so does the government, and if the parties cannot resolve
those objections, I’ll take care of those objections at the sentencing hearing by way of ruling on them. But once that process is done,
we’ll know what the advisory guidelines are,
and you won’t know that until that process
has unfolded. Do you understand that?
THE DEFENDANT:

Yes.

THE COURT: I mention that to you, because
your attorney is experienced and, no doubt,
has advised you what the guidelines are
likely to be, but you need to be aware that if
the guideline calculation by Probation is different than what you expected that will not be

App. 16
a basis for withdrawing your plea of guilty. Do
you understand that?
THE DEFENDANT:

Yes.

(Id. at 8:15–9:19).
Finally, the Court informed Petitioner that the
guidelines are advisory, observing that the Court can
vary from the guidelines to give a sentence that is
lower or higher than the advisory guidelines. (Id. at
9:20–10:3). Notwithstanding the potential of a sentence far in excess of the advisory guideline range, the
Petitioner elected to plead guilty. His desire to now absolve himself of that decision to remain in the United
States is not the type of “compelling circumstances
necessary to achieve justice” for which the writ of coram nobis is intended.
IV. CONCLUSION
Petitioner failed to seek relief under 28 U.S.C.
§ 2255 for the alleged ineffective assistance of counsel,
and he went so far as to dismiss his direct appeal. A
writ of coram nobis is not intended to be a remedy of
first resort. Simply put, petitioner fails to provide
sound reasons for failing to seek relief earlier. Moreover, Petitioner was well-aware of the potential risks of
proceeding to trial, including the maximum statutory
penalty to which he could be sentenced and that any
advice by his attorney regarding the sentencing guidelines may prove to be incorrect. Being mindful of these
realities, Petitioner pleaded guilty. He is not entitled to

App. 17
relief even if it were available. His petition (Doc. 427)
is, therefore, DENIED.
DONE AND ORDERED in Orlando, Florida on
February 18, 2020.
/s/ Paul G. Byron
PAUL G. BYRON
UNITED STATES
DISTRICT JUDGE
Copies furnished to:
Counsel of Record
Unrepresented Parties

